                                                      NATIONAL SCIENCE FOUNDATION
                                                       OFFICE OF INSPECTOR GENERAL
                                                         OFFICE OF INVESTIGATIONS

                                                CLOSEOUT MEMORANDUM

    Case Number: A06090041                                                                        Page 1 of 1
                                                                                                                    I
                    NSF OIG received an allegation against a Subject ' alleging plagiarism within an NSF
            proposal. 2 Initial analysis of this proposal and two other proposals3 identified potential
            plagiarism. OIG conducted an inquiry and, since the evidence warranted an investigation,
            referred the matter to the university4 for investigation. The Investigation Committee concluded,
            based on a preponderance of evidence, that the Subject's actions were a significant departure
            from accepted prac~ices.

                    The Deciding Official imposed seven sanctions: 1) The Subject must receive formal
            training in acadenlic misconduct and research ethics; 2) The Subject IIZLIS~develop and present a
            seminar about academic misconduct to incoining graduate students; 3) The Subject must submit
            his proposals and ~nanuscriptsto plagiarism detection software for three years and his department
            head must assure that he has done so; 4) The Subject can only receive across-the-board salary
            adjustments for two years; 5) A letter of reprimand will be put in the Subject's personnel file; 6)
            'I'he Committee's Report will be included in the Subject's promotion and tenure portfolio; and 7)
            Any additional violations could result in termination.

                    OIG further investigated the matter and found additional plagiarized material in the
            Subject's three declined NSF proposals. OIG concurred with the University assessment, and
            recommended: 1) making a finding of research misconduct; 2) sending the Subject a letter of
            reprimand; 3) requiring certifications for a period of 2 years; 4) requiring assurances for a period
            of 2 years; and 5) requiring completion of an ethics course. The Deputy Director accepted our
            reco~ll~ileildations.

                    'This memo, the attached Report of Investigation, and the Deputy Director's letter constitute
            the case closeout. Accordingly, this case is closecl.




L
                               =r

NSF OIG F o t ~ n2 ( 1 1/02)
                                  NATIONAL SCIENCE FOUNDATION
                                      4201 WILSON BOULEVARD
                                     ARLINGTON, VIRGINIA 22230




     OFFICE OF THE
    DEPUTY DIRECTOR




CERTIFIED MAIL --RETtTRN RECEIPT REQUESTED


Assistant Professor




       Re:      Notice of Research Misconduct Determination


Dear Dr.

                           .
       From 2005 - 2006., vou submitted three urouosals to the National Science Foundation




in the attached Investigative Report prepared by NSF's Office of Inspector General ("OIG"),
these proposals contained plagiarized text.

Research Misconduct and Proposed Sanctions
        Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
or plagiarism In proposing or perforrhing research funded by NSF . . ." 45 CFR 4 689.1(a). NSF
defines "plagiarism" as "the appropriation of another person's ideas, processes, results or words
without giv~ngappropriate credit." 45 CFR § 689.1(a)(3). A finding of research misconduct
requlres that:

       (1) 'There be a significant departure from accepted practices of the relevant research
             community; and
       (2) The research misconduct be comnlitted intentionally, or knowingly, or recklessly; and
       (3) The allegation be proven by a preponderance of evidence.

45 CFR   9 689.2(c).
                                                                                              Page 2
                                                                                                        .
        Your proposals contained verbatim and paraphrased text from several source documents..              '




By submitting proposals to NSF that copy the ideas or words of another without adequate
attribution, as described in the' OIG Investigative Report, you misrepresented someone~else's
work as your own. In addition, you failed to properly acknowledge or credit the authors of the .   '




source documents in your proposals. Your conduct unquestionably-constitutesplagiarism; I       .'

therefore conclude that your actions meet the definition of "research misconduct" set forth in
NSF's regulations.

        Pursuant to NSF regulations, the Foundation must also determine whether to make a
Pndzng of misconduct based on a preponderance of the evidence. 45 CFR 5 689.2(c). After
reviewing the Investigative Report and the University Committee Report, NSF has determined
that, based on a preponderance of the evidence, your plagiarism was committed knowingly and
constituted a significant departure from accepted practices of the relevant research community. I
am, therefore, issuing a finding of research misconduct against you.

        NSF's legulations establish three categories of actions (Group I, 11, and III) that can be
taken in lcspolise to a finding of misconduct. 45 CFR 8 689.3(a). Group I actions include
issuing a letter of reprimand; conditioning awards on prior approval of particular activities from
NSF; requiring that an institution or individual obtain special prior approval of particular
activities from NSF; and requiring that an institutional representative certify as to the accuracy of
reports or certifications of compliance with particular requirements. 45 CFR 689.3(a)(l).
Group 11actions include award suspension or restrictions on designated activities or
expenditures; requiring special reviews of requests for funding; and requiring correction to the
research record. 45 CFR 9 689.3(a)(2). Group IIT actions include suspension or termination of
awards; prohibitions on participation as NSF reviewers, advisors or consultants; and debarment
or suspension from participation in NSF programs. 45 CFR 689.3(a)(3).

        Irl determining the severity of the sanction to impose for research misconduct; I have
considered the seriousness of the misconduct, our deternlination that it was knowing,as well as
our dctelmination that it was a part of a pattern of plagiarism. I have also considered the fact that
your misconduct did not have a significant impact on the research record, as well as the
contrition that you demonstrated during the investigative process. I have also considered other
relevant circumstances. 45 CFR § 689.3 (b).

        In light of the foregoing, I am requiring that, from the date of this letter until August 15,
201 0, you certify that any proposal you submit lo NSF as a principal investigator or co-principal
investigator does not contain plagiarized, falsified, or fabricated material. In addition, for this
same time period, an official of your employer must provide written assurance that any proposal
you submit to NSF as a principal investigator or co-principal investigator does not containany
plagiar~zed,falsified or fabricated information. Lastly, by August 15, 2009, you must certify that
yo11 ai(cndcd a courseon research ethics and plagiarism, and provide documentation to prove
yo111ettendznce at that course. Such certifications and assurances should be submitted in writing
to the Officc of Inspector General, Associate Inspector General for Investigations, 4201 Wilson
Boulevard, Arlington, Virginia 22230.
                                                                                                Page 3
    Procedures Governing Ameals
            Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
    of this decision, in writing, to the Director of the Foundation. 45 CFR fj 689.10(a). Any appeal
    should be addressed to the Director at the National Science Foundation, 4201 Wilson Boulevard,
    Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
    decision will become final.

           For your information, we are attaching a copy of the applicable regulations. If you have
    any questions about the foregoing, please call             Assistant General Counsel, at (703)
    292-8060.



                                                        Sincerely,



                                                        Kathie L. Olsen
                                                        Deputy Director


    Ellclosures
,   - Investigative Report
    - 45 C.F.R. Part 689
       National Science Foundation
       Office of Inspector General




                        Confidential
                    Investigation Report
                  Case Number A06090041
                                  25 April 2008


    T h s Confidential Investigation Rep0rt.i~the property of the NSF QIG and%maybe dsclosed outside
        NSF only by OIG under the Freedom of Informahon and Privacy Acts, 5 U.S.C. $$ 552,552a.
I
                                                                                                            U
                                                                                    NSF 01G Form 22b (1 1/06)
                                         Executive s ~ m m a ~

Allegation:       Plagiarism.
OIG Inquiry:      OIG identified 13 source texts fiom which approximately 132 unique lines were
                  apparently copied into three declined NSF proposals. OIG referred the matter to
                  the subject's home institution.
University
Inquiry:          The University conducted an inquiry into the allegation and concluded there was
                  sufficient evidence to warrant an investigation.

University
Investigation
and Action:       The Investigation Committee concluded, based on a preponderance of the
                  evidence, that the Subject knowingly committed plagiarism, deemed a significant
                  departure from accepted practices.
                  The Deciding Official imposed seven sanctions: 1) The Subject must receive
                  formal training in academic misconduct and research ethics; 2) The Subject must
                  develop and present a seminar about academic misconduct to incoming graduate
                  students; 3) The Subject must submit his proposals and manuscripts to plagiarism
                  detection software for three years and his department head must assure that he has
                  done so; 4) The Subject can only receive across-the-board salary adjustments for
                  two years; 5) A letter of reprimand will be put in the Subject's personnel file; 6)
                  The Committee's Report will be included in the Subject's promotion and tenure
                  portfolio; and 7) Any additional violations could result in termination.
OIG Investigation: OIG found an additional 6 lines of text, 1 table, 1 figure, and 2 captions from 1
                   other source; OIG thus identified 14 source texts from which approximately
                   138 unique lines, 1 table, 1 figure, and 2 captions were apparently copied into
                   three declined NSF proposals.
OIG Assessment:           OIG concurs with University assessment.
                             The Act: The Subject committed plagiarism in three proposals.
                          9  Intent: The Subject acted knowingly.
                             Standard of Proof: A preponderance of evidence supports the
                             conclusion that the Subject committed plagiarism.
                             Significant Departure: The Subject's plagiarism represents a
                             significant departure from accepted practices.
                             Pattern: Two USDA proposals also contained plagiarism.
OIG Recommends:
                                Make a finding of research misconduct against the Subject.
                                Send the Subject a letter of reprimand.
                                Require certifications from the Subject for a period of 2 years.
                                Require assurances from the Subject for a period of 2 years.
                                Require certification of attending an ethics class within 1 year.
                                                    OIG's Inauirv

        The National Science Foundation (NSF) Ofice of Inspector General (OIG) conducted an
inquiry into an allegation that the subject1 submitted an NSF proposal (Proposal 12) containing
plagiarism. Initial analysis of this proposal and two other proposals (Proposal Z3 and Proposal 34)
found approximately 132 unique lines apparently copied from 13 source texts.' Four of the alleged
sources from which the Subject apparently copied text into Proposal 1 were anonymous peer reviews
by NSF reviewers about Proposal 2.6

        OIG contacted the Subject about the allegation.' The Subject responded8 that: 1) the
anonymous peer reviews were useful, and he was unsure whether they could be used; 2) he had
received letters of support from some of the source text authors; 3) his non-native command of
English made paraphrasing difficult; 4) his use of uncited or inadequately cited text was an
oversight;g 5) some annotated phrases are used frequently due to their technical nature; and, 6)
citations to the source texts are often in the proposals.'0 Additionally, the Subject said that he also
included an inadequately cited table and figure into Proposal 2."

          The following chart summarizes the allegedly copied text in each proposal:




' Tab 4, Sources A-M.
 Tab 4, Sources A, D-F.
'Tab 5.
   The Subject provided our office with two written responses: a brief letter dated November 7,2006, and a more
elaborate letter dated December 20,2006. Tab 6 contains both letters.
'Tab6,pg 1 and3.
'O Tab 6, pg 4.
' I Tab 6, pg 1 and 4. The figure and table are from reference #lo2 in Proposal 2. Because 0 1 G only recently located this
text, it was not included in the materials sent to the Subject or to the University. However, 0 1 G did examine the article
during its investigation, as detailed below.
As illustrated, OIG identified within the three proposals a total of 132 lines of unique text apparently
copied from 13 sources. We concluded there was sufficient evidence to proceed with an
investigation, and referred the matter to the university.13

                                     Universitv Inquirv and Investigation

       As per University policy,'4 three University officials reviewed the allegation and evidentiary
material.'' They concluded that an inquiry was warranted. l 6

         The Inquiry Committee reviewed the documents and interviewed the Subject. It concluded
"that there is indeed considerable evidence of plagiarism in his work"17 and recommended further
 investigation." The Deciding Official (DO)" concurred and charged hte-
(~ommittee)                                      with the in~esti~ation.'~




  A copy of the source text had then not yet been located although the Subject indicated he failed to cite them; OIG was




             .   .-
" Tab
'' Tah 9
        9.


'"Tab 10, pg 4
           The Committee examined documents OIG provided and determined that the majority of the
    allegedly copied excerpts constituted plagiarism.2'

             The Committee also interviewed the            During his interview, the Subject admitted
    knowing that he copied text several times and should have cited the sources.23For example, he said

    that "I shouldn't have done it. I realize that." P
    he included a lot of text from Source I in Pro osal3 because it described a new technique, adding


            Both the Committee and Subject noted that there were progressively fewer instances of
    plagiarism with each subsequent proposal as the Subject became more knowledgeable about and
    careful with proposal writing.25For example, the Subject said he realized that he had copied a figure
    and table26in Proposal 2 without citation as he was writing Proposal 1. He thus did not use these
    materials in Proposal 1.27

            The Committee asked the Subject specifically about text from Source J used in Proposal 3.
    The Committee noted that text from J5, "When we compared data generated previously from the
    same tissue samples, with different [ ]28methods, a greater variation was observed," suggests that the
    data, observations, and work were the Subject's, and not someone else's as was the case.29When
    asked whether he had replicated the work, the Subject responded that he had not. 30 Regarding
    Source 57, the Committee questioned the deletion of an embedded reference in the proposal that
    appeared in the source text.3' The Subject said the deletion was an oversight.32

            The Committee determined that "the large majoriQ of text portions without appropriately
    cited references" constituted a preponderance of the evidence by which to make a finding of research
    ~nisconduct.~~ The Committee further found that the Subject "knew he should cite references and



    2' Materials provided by the University are unclear as to the exact number of excerpts that constituted plagiarism. For
    example, Tab 10, pg 1 states that 20 of the 28 excerpts were determined to constitute plagiarism; Tab 10, pg 5 states that
    20 of the 24 excerpts were determined to constitute plagiarism; Tab 10, pg 35 indicates that 33 of the 43 excerpts were
    determined to constitute plagiarism: while Tab 12, pg 1, 3-6 indicates that 30 of the 43 excerpts were determined to
    constitute plagiarism. (The University provided the materials in Tab 12 in response to an OIG request to clarify the
    contradictory statements.) While Tab 10, pg 1, and Tab 10, pg 5, do not indicate specifically how their respective
    "counts" were made, Tab 10, pg 35, and Tab 12, pg 3, list the sections the Committee determined constituted plagiarism.
    The difference between Tab 10, pg 35, and Tab 12, pg 3 lie in how they classify Sources Dl-D3. Regardless, for our
    p2urpose,the Committee determined that the vast majority of excerpts constituted plagiarism.
       Tab 10, pg 48-50, contains the interview questions. The interview was tape recorded, but not transcripted. Our office
    reviewed the tapes, which are available for review in the larger OIG file.
    23 Tab 10, pg 44.
    24 From OIG's review of the taped interview.
    25
       From OIG's review of the taped interview.
    26 The Committee did not locate the source text, but rather accepted the Subject's admission of plagiarism (Tab 12, pg 2).
    27 From OIG's review of the taped interview.

- 8 2
    29 Tab 10, pg 50.
    30 From OIG's review of the taped interview.
    " Tab 10, pg 50.
    32 From OIG's review of the taped interview.
    33
       Tab 11, pg2.
should not copy text fiom other people's work," and thus: "By consensus, for all sections determined
to be plagiarism, the Committee agreed that [the Subjectl's intent was k n o w i n ~ l ~ . " ~ ~

     Lastly, the Committee used the Subject's field35as the relevant research community. Two
Committee members, both professors in that research field, explained that:

                 Using someone else's data table without proper citation or verbatim
                 copying of sentences or a series of sentences without quotation marks and
                 pro er citation are significant departures from accepted practices in the
                 [ $area. [Relevant academic societies and j~umals]'~    would not consider
                 this practice acceptable. Some of the copied sentences were for a
                                                                            r*
                 particular method used. Occasionally portions of s ecific methods are
                 copied, but the author(s) must be given due credit.

The Committee therefore concluded that, based on pre onderance of the evidence, the Subject
"knowingly committed plagiarism as alleged by NSF"' and that the action deviated from the
accepted practices of the relevant research community.

    The Committee recommended that:

    a   The Subject attend a research misconduct course, and prepare both a workshop for graduate
        students and a presentation for the Deciding Official (DO);
    a   The Subject screen his work for ethical and/or academic misconduct before submission;
    a   The Subject receive no merit pay for a period decided by the DO; and
    a   The Subject faces termination or other sanctions if additional violations are di~covered.~'

    The Committee subsequently examined other publications and proposals the Subject wrote.4' In
an addendum to the ~ e ~ o r thet ? Committee
                                    ~         found that the Subject committed plagiarism in two of
three proposals from another federal agency.43The Committee concluded "that there is a pattern of
plagiarism in [the Subjectl's scholarly works"44and recommended that, in addition to the previous
recommended sanctions, its Report be considered during the Subject's promotion and tenure       ,
reviews.45




    Tab 10, pg 44. (Emphasis deleted.)
40Tab 10,pg36.
4 ' Tab 10, pg 36.
42
    Tab 10, pg 5 1. Tab I1, pg 13-38, contain materials related to plagiarism within United States Department of
Agriculture (USDA) proposals and Tab 12, pg 1, indicated that the University could not provide the relevant source
documents.
43 USDA.
4 4 ~ a10,pg51.
         b
45
    Tab 10, pg51.
                                            Universitv Adiudication

   The Deciding Official (DO) reviewed the Report and produced his own report.46Overall, he
concurred with the Committee's findings.47He stated:

                 In all of his interviews with the INQUIRY and INVESTIGATIVE Committees,
                 [the Subject] did not present adequacy in his defense to the questions
                 asked. [The Subject] did admit that he knew he should have cited sources
                 for some of the plagiarized passages and in some cases, lack of attribution
                 was simply an oversight. In each instance, committee members were left
                 with the impression that [the Subject] seems to lack a knowledge and an
                 understanding of proper attribution of sources which can lead to a   _-I




                 conclusion that his scholarship, itself, may lack a sound scientific
                 f~undation.~'

    The DO also wrote that "we believe that [the Subjectl's training in this area was inadequate,
being partially cultural. In addition, there was a level of recklessness. Thus, we believe that
additional training with oversight could correct defi~iencies."~'Lastly, the DO said that the Subject
"did accept responsibility and expressed remorse."50

        The DO imposed seven sanctions:

        The Subject must complete formal training in academic misconduct and research ethics;
        The Subject must develop and present a seminar about academic misconduct to graduate
        students;
        The Subject must submit his proposals and manuscripts to plagiarism detection software for
        three years and his department head must assure that he has done so;
        The Subject can only receive across-the-board salary adjustments for two years;
        A letter of reprimand will be placed permanently in the Subject's personnel file;
        The Report will be included in the Subject's promotion and tenure reviews; and
        Any subsequent violation could result in additional sanctions including termination."

                                Subject's Response to Investigation Report

        The DO provided the Subject with a draft report and informed him of the sanctions.52The
Subject did not contest the findings. He explained that ". . . it was neither my intention to impair my
professional reputation nor the credibility of great institution [University] (sic)."j3 He said "I will do
my best not to make any mistakes again."54Although, the Subject felt the time frame of some of the

46 Tab 10, pg 4-7.
47 ~ a 10,
        b pg 1.
48 Tab 10, pg 7.
49 ~ a 10,
        b pg I .
50
   Tab 10, pg 7.
5' Tab 10, pg 2-3
52
   Tab 10, pg 2-3. A signed copy of the document appears in Tab 12, pg 7.
" Tab 11, pg 39.
54
   Tab 11, pg 39.
sanctions should be reduced and the letter of reprimand not be placed permanently in his file, 55 he
did not appeal any of the ~anctions.'~

                                              OIG's Investigation

       The University provided OIG with its Report and attachments. 57 We informed the Subject
that we had received the Report and invited him to provide additional ~ornment.~'   He responded that
he "read the Report and respect[ed] the decision of the University. I am willing to correct my
deficien~ies,"'~

         OIG also located and annotated the article the Subject had identified during OIG's in uiry,
the article from which the Subject acknowledged having copied an uncited table and figure? OIG
re-examined the three proposals in light of this article, identified as Source N, and found a figure and
accompanying caption, a table and accompanying caption, and 6 unique lines of text copied from the
article into Proposal 2.61This newly identified material was added to the previously calculated total
of plagiarized material. OIG therefore found that the Subject plagiarized a total of 138 unique lines,
 1 table, 1 figure, and 2 captions from 14 source texts into three declined NSF proposals.

                                               OIG's Assessment

       A finding of research misconduct by NSF requires that (1) there be a significant departure
from accepted practices of the relevant research community, that (2) the research misconduct be
committed intentionally, or knowingly, or recklessly, and that (3) the allegation be proved by a
preponderance of the evidence.62

        OIG concludes the University followed reasonable procedures and produced an accurate
body of evidence addressing the allegation of plagiarism in the Subject's NSF proposals. OIG finds
the University's Report adequately responds to the scientific issues identified in our investigation
referral letter. Therefore OIG accepts the University's Report and its evidentiary record.

                                               The Act
        The Subject plagiarized 138 unique lines, 1 table, 1 figure, and 2 captions ffom 14 source
texts within three declined NSF proposals. Throughout the inquiry and investigation the Subject did
not contest that he copied material without adequate citation. During the Subject's interview with the
Committee, he acknowledged that he represented others' words and data as his own and that he
detailed a new research technique using others' words. He often attributed his actions to simply
oversight.          ,




'' Tab 1 I , pg 39.
5G        b pg 2.
     ~ a 12,
5' Tab 10. OIG requested additional information and documentation (Tab 1 I), which the University provided (Tab 12).
   Tab 13.
59 ~ a 14.b
60
   Tab 15, Source N.
61 Tab ,I 5.
62 45 C.F.R. $689.2(c).
        OIG concurs with the Committee that the Subject significantly departed from the accepted
standards of the research community in offering text written by others as his own words, and in
providing those words as emblematic of his own understanding of the research field. Similarly, OIG
finds that by appropriating the word "we" in Proposal 3, the Subject not only adopted research
undertaken by others as his own effort, but misrepresented his own effort and underlying body of
knowledge in the proposed subject matter.

                                                  Intent
         OIG concurs with the University Committee's conclusion that the Subject acted knowingly.
First, the Subject did include citations within his proposals, indicating he was aware that citations
were necessary. Second, the Subject knowingly copied material related to work he had not
conducted, thereby representing it as his own work. Third, the Subject acknowledged having copied
text without citation and apologized for his actions. Lastly, the extent of plagiarism suggests the
Subject's actions were more than reckless.

                                      Standard o f Proof
       OIG concurs with the Committee that the Subject's actions and intent were proven based on a
preponderance of the evidence.

       OIG concludes that the Subject, by a preponderance of the evidence, knowingly plagiarized,
thereby committing an act of research m i s c ~ n d u c t . ~ ~

                                     OIG's Recommended Disposition

       When deciding what appropriate action to take upon a finding of misconduct, NSF must
consider:

                   (1) How serious the misconduct was; (2) The degree to which the
                   misconduct was knowing, intentional, or reckless; (3) Whether it was
                   an isolated event or part of a pattern; (4) Whether it had a significant
                   impact on the research record, research subjects, other researchers,
                   institutions or the public welfare; and (5) Other relevant
                   circu~nstances.~~

                                                 Seriousness
         The PI'S actions are a clear violation of the standards of scholarship and of the fundamental
tenets of research ethics. The extent of the plagiarism - approximately 138 unique lines, 1 table, 1
figure, and 2 captions within three declined NSF proposals from 14 source texts - is in itself serious.
In addition, we note that the copied text serves to present others' research methodology and data as
the Subject's own, thereby presenting NSF reviewers with an inaccurate means of judging the
proposals' respective merit. Although the Subject's ambiguous presentation of the material does not
rise to the level of fabrication, i.e., the Subject did not explicitly state that he himself had conducted
the experiments and gotten the results, the Subject's presentation of others' data and text as his own


     45 C.F.R. part 689.
64   45 C.F.R. § 689.3(b).
                                                                                                                    I
     falls just short of intellectual theft. As such, the seriousness of this situation is greater than that of a   I
                                                                                                                    I
     case in which another's words alone are copied.                                                                I
                                                                                                                    I

                                     Denree to which Action was Knowing
                                                                                                                    I
                                                                                                                    I
                                                                                                                    I
            Our office generally believes that the act of plagiarism is an act done knowingly. In                   I
                                                                                                                    I
     submitting the NSF proposals, the Subject clearly knew he had copied the text without attribution.             I
     Further, the Subject acknowledged during the inquiry or investigation, that he had copied the
     material without citation.                                                                                     I


                                                                                                                    i
             The Subject's professional experiences also suggest he knew he was violating several tenets
     of the research community. First, the Subject has been a professor since 2004 at a University with a               I

                                                   Academic Misconduct ~olicv.which defines -
                                                                                                                        I
     research misconduct Dolicv. ~he.~nivers;tv's                                                                       I




     University's philosophy as follows:




     The policy suggests that the Subject himself is responsible for familiarizing himself in his
     University's accepted standards of research ethics. In addition, one could argue that the Subject's
     role as mentor to postdoctoral fellows and graduate              i.e. other future scholars, only
I    magnifies this responsibility. Furthermore, the other U.S. academic i n ~ t i t u t i o n with
                                                                                               s ~ ~ which the
I    Subject was employed each had research misconduct policies.
I
I           Furthermore, the PI has ap roximately 55 publications including peer-reviewed papers,
I    abstracts, and proceeding papers.691n addition, he serves as an ad hoc reviewer for a number of
II
     publications70and is currently associate editor of an academic journal.71 Many of the publishers and
1    academic societies that produce these journals have research misconduct policies. For example, the
     academic society72of the journal for which the Subject is currently associate editor, in which the


     65 Tab   8.
     66   Tab 8 .
     67   Tab 1 , Bio sketch.
     68
                                                   Tab 1, Bio sketch)
     " Tab     1, Bio sketch.
     70
          Tab I , Bio sketch.
     71
     72
                                             The academic society publishes three journals.
Subject has himself published numerous articles, and in which the Subject is a regular member has a
"Publication Ethics Policy." The policy states:




Given the Subject's numerous ties to this academic society, he is not only in the position of needing
to abide by this policy, but he is also obligated to enforce this policy. As such, he should be
knowledgeable in what constitutes research misconduct.

                                               Pattern
       OIG concludes the current evidence - plagiarism in three proposals and two other proposals
submitted to a different federal agency - supports a finding of pattern within the Subject's actions.

                                                    Recommendation

Based on the evidence, OIG recommends that NSF:

               r    send a letter of reprimand to the Subject informing him that NSF has made a finding
                    of research mi~conduct;'~

                    require the Subject to certify to OIG's Associate Inspector General for Investigations
                                  x
                    (AIGI) that roposals or reports he submits to NSF do not contain plagiarized material
                    for 2 years;

                    require that the Subject submit assurances by a responsible official of his employer to
                    AIGI, OIG, that any proposals or reports submitted by the subject to NSF do not
                    contain plagiarized material for 2 years;76and



74   A letter of reprimand is a Group I action (45 C.F.R. $689.3(a)(l)(i)).
75   ~ e r t i f i c a t i o n ~anb individual
                                    ~          is authorized in 45 C.F.R. §689.3(a).
76   Requirement for assurances is a Group 1 action (45 C.F.R. $689.3(a)(l)(iii)).
                    require the Subject to complete an ethics course within 1 year and provide
                    certification of its completion to OIG upon completion.

                             Subiect's Response to Draft Investigation Report

    NSF OIG sent the Subject a copy of our draft report for           The Subject's reply78did
not provide adequate reason for OIG to change its original recommendation, as stated above.




" Tab    16.   ',
'*   Tab 17.
